Audit of the National Aeronautics and Space Administration’s Fiscal Year 2013 Financial
Statements (IG-14-006, December 6, 2013)

The Office of Inspector General contracted with the independent public accounting firm
PricewaterhouseCoopers LLP (PwC) to audit NASA’s financial statements in accordance with
the Government Accountability Office’s Government Auditing Standards and the Office of
Management and Budget’s Bulletin No. 14-02, “Audit Requirements for Federal Financial
Statements.”

The audit resulted in an unmodified opinion on NASA’s fiscal year (FY) 2013 financial
statements. An unmodified or “clean” audit opinion means that the financial statements present
fairly, in all material respects, the financial position and the results of the entity’s operations in
conformity with U.S. generally accepted accounting principles.

PwC also issued its reports on internal control and compliance with laws and regulations. PwC
reported no material weaknesses or significant deficiencies in internal control. In FY 2013,
NASA resolved its sole remaining significant deficiency from prior years related to
environmental liability estimation. During the audit, PwC also identified no instances of
significant noncompliance with applicable laws and regulations.

See the Financials section of NASA’s FY 2013 Agency Financial Report for the Inspector
General’s transmittal letter and PwC’s audit reports.
http://www.nasa.gov/sites/default/files/files/FY13_NASA_AFR.pdf
